<html>
<title> - TRANSITION AT A CROSSROADS: TUNISIA THREE YEARS AFTER THE REVOLUTION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







  TRANSITION AT A CROSSROADS: TUNISIA THREE YEARS AFTER THE REVOLUTION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 4, 2013

                               __________

                           Serial No. 113-92

                               __________

        Printed for the use of the Committee on Foreign Affairs







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

85-790 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
TREY RADEL, Florida                  BRADLEY S. SCHNEIDER, Illinois
DOUG COLLINS, Georgia                JOSEPH P. KENNEDY III, 
MARK MEADOWS, North Carolina             Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
LUKE MESSER, Indiana                 LOIS FRANKEL, Florida


















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Scott Mastic, regional director, Middle East and North 
  Africa, International Republican Institute.....................     5
Mr. Leslie Campbell, senior associate and regional director, 
  Middle East and North Africa, National Democratic Institute....    12
Mr. Bill Sweeney, president and chief executive officer, 
  International Foundation for Electoral Systems.................    21

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Scott Mastic: Prepared statement.............................     7
Mr. Leslie Campbell: Prepared statement..........................    14
Mr. Bill Sweeney: Prepared statement.............................    23

                                APPENDIX

Hearing notice...................................................    40
Hearing minutes..................................................    41

 
  TRANSITION AT A CROSSROADS: TUNISIA THREE YEARS AFTER THE REVOLUTION

                              ----------                              


                      WEDNESDAY, DECEMBER 4, 2013

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2167 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. 
After recognizing myself, my good friend, the ranking member 
Ted Deutch of Florida for 5 minutes each for our opening 
statements, we will then break for votes and when we come back, 
I will recognize members of our subcommittee for 1-minute 
opening statements each. And then, we will hear from our 
panelists. And without objection, the witnesses' prepared 
statements will be made a part of the record and members may 
have 5 legislative days to insert statements and questions for 
the record, subject to the length limitation of the rules. The 
chair now recognizes herself for 5 minutes.
    Three years ago this month, the self-immolation of a 
Tunisian street vendor would set in motion a series of events 
that would fundamentally change the political landscape of the 
entire Middle East and North Africa region--a period we now 
call the Arab Spring. Finally fed up with autocratic rule, with 
corruption, with a lack of basic freedoms, thousands of 
Tunisians took to the streets calling for democratic and social 
reforms and an end to the maligned 23-year rule of their 
leader.
    But though there has been some significant progress made 
since his ouster, there is still so much that needs to be done 
to meet the goals and the aspirations of the Tunisian people 
who began this process, as I said, 3 years ago. By most 
accounts, the Tunisians had a successful National Constituent 
Assembly election in October 2011, which brought a party into 
power together with the Tunisian two leading secularist 
parties.
    However, the newly formed government quickly ran into 
obstacles that it could not overcome and Tunisia's transition 
came to a grinding halt this summer when a prominent secular 
party member was assassinated. The assassination eventually led 
to the formation of a National Dialogue process to jump start 
the reconciliation process, to select a caretaker government, 
and get Tunisia back on track for a new round of elections. But 
the National Dialogue has been met with its own set of 
obstacles and the negotiations over who will be the caretaker 
Prime Minister have caused an impasse.
    Now, as the political process has paused and the future of 
the Constitution and elections are in question, Tunisia finds 
itself at a crossroads as frustrations begin to set in and the 
rift between the secular and the Islamist ideologues continues 
to grow as both sides battle for legitimacy. Compounding these 
political problems are the economic and security challenges 
facing Tunisia as all three are undeniably linked and all three 
face an uphill battle.
    However, one of the most pressing issues from a U.S. 
perspective is the threat of Islamic extremism in Tunisia. 
Foreign fighters and home grown extremists have challenged the 
stability of Tunisia, and while the Tunisian security forces 
have thus far been able to combat al-Qaeda, AQIM, and its 
affiliates, these terrorist networks continue to pose a threat 
to Tunisia and to the region.
    Tunisia's border with Algeria is known to be a training 
area for the terrorist groups, and the insecure border with 
Libya is a major area for concern as it is vulnerable to 
smugglers and others who wish to cross into Tunisia undetected. 
Terrorist attacks like the one on the U.S. Embassy in September 
2012 as well as the assassination of two prominent secular 
politicians threaten to derail the political process.
    With Tunisia being the birthplace of the Arab Spring, we 
must continue to support the democratic aspirations in the hope 
that it can come through this transition successfully. For 
better or worse, the fate of Tunisia is tied to the reform 
movements throughout the rest of the region as it is viewed as 
the test-case for the democratic transitions in the Arab world.
    It is in the vital national security interests of the 
United States to see a secure, a stable and a democratic 
Tunisia, and I hope the administration does not overlook the 
importance of this strategic country. We must remain engaged 
throughout the National Dialogue process and beyond to ensure a 
successful transition to democracy in Tunisia and we must not 
allow the terrorist groups to derail the political transition 
nor gain any more influence in an already susceptible region. 
And we must work to find effective ways to assist Tunisia as it 
struggles to fight this rising threat of terrorism.
    This is a critical juncture for Tunisia, for the region and 
for United States strategic interests. We must support the 
people of Tunisia as they struggle to achieve real reforms and 
we must also support groups like IRI, NDI, IFES who are on the 
ground day after day promoting democracy in this vitally 
important region and working to find a consensus among all 
parties on a new Constitution and new electoral process.
    With that, I yield to my ranking member, my friend, Ted 
Deutch.
    Mr. Deutch. Thank you, Madam Chairman, and thanks to our 
witnesses for testifying today on the state of Tunisia's 
transition. Thanks as well for your patience as we prepare to 
head off to vote.
    It has been 3 years since a Tunisian street vendor changed 
the course of Tunisia in the Middle East. As we all remember, 
Mohamed Bouazizi, an unlicensed vendor was being harassed by 
police and accused by local authorities of evading an arbitrary 
fine. The police confiscated six crates of his fruits and his 
electronic scale and denied him any appeal. In debt, tired of 
being harassed, without recourse and without economic 
opportunities, Bouazizi set himself on fire. His act became a 
catalyst for the Jasmine Revolution and the wider Arab Spring 
and it incited demonstrations and riots throughout Tunisia and 
the region in protest of social, political, and economic 
issues.
    In the months that followed, the world had great hopes 
about what Tunisia might become. In early 2011, Tunisia ended 
the authoritarian regime of then President Ben Ali and in 
October 2011, Tunisia held elections that were praised as free 
and fair. Political and civil liberties were expanded and it 
appeared that Tunisia would become a model for the rest of the 
Middle East. Unfortunately, Tunisia has fallen short of the 
lofty and perhaps unrealistic expectations that were set in 
2011. Political squabbling is limited to structural reforms 
needed to guarantee democratic institutions and the summer's 
assassination of a prominent secular leader has left many 
Tunisians not only disillusioned with their country's growing 
political polarization, but also increasingly worried about 
their own safety.
    Under former President Ben Ali, the Tunisian people were 
used to the stability of a police state. However, violent 
extremist groups have exploited the region's poorest borders 
with terrorist attacks on the U.S. Embassy and a popular 
tourist resort. Tunisians are increasingly frightened and 
seeking stability. Furthermore, many of the same economic 
challenges that contributed to the Jasmine Revolution still 
exist today. Youth unemployment among college graduates is over 
30 percent. Tunisia's international credit rating is poor and 
the increasingly unstable security situation has been 
particularly damaging for a country that employs 400,000 people 
in the tourism industry.
    Furthermore, according to press reports, not a single 
project from the 2012 budget has been fully implemented yet. In 
short, it's not clear that the everyday life of Tunisians has 
improved since the ouster of Ben Ali. A young Tunisian 
protester was recently quoted as saying, ``We live in desperate 
conditions because of unemployment, poverty, and misery. We are 
only asking to live in dignity.''
    My worry is that continued the political stalemate and 
instability that are plaguing Tunisia may make the country 
increasingly vulnerable to political actors who could set the 
country on a path back toward an authoritarian state. We all 
know that establishing a democracy is not easy, that political 
squabbling is by no means limited to Tunisia. This political 
conflict while damaging is not being fought with bullets. The 
Tunisian political parties have seen the devastating conflict 
in Syria. They have seen the errors or Morsi in Egypt. The 
parties have all publicly agreed that widespread violence and 
exclusionary governance that has plagued the region is not what 
they want for Tunisia's future. The ruling Ennahda Party has 
shown that it can compromise on key issues and reign in those 
hard liners demanding conservative amendments to the 
Constitution.
    The party eventually agreed to step down to make way for a 
caretaker administration which is why the constituent assembly 
which is drafting the Constitution will remain in place and 
will hopefully produce a Constitution that establishes the 
structures and institutions that are necessary for a democratic 
Tunisia.
    The United States has made a pledge to the people of 
Tunisia in support of their transition to a democracy and 
although success has not been immediate, in many ways, Tunisia 
still has the best chance of turning into a consolidated 
democracy. And that is why despite the challenges, the success 
of Tunisia is key to our interests and our ideals.
    I want to thank NDI, IRI, and the International Foundation 
for Electoral Systems for your contributions in Tunisia, not 
only doing key work in strengthening political parties, civil 
society, and providing election support, but in many ways it is 
your organizations that are representing the American ideals of 
equal opportunity and dignity for all and we are grateful for 
that. Although the attention that Congress and the American 
people are paying to Tunisia is probably insufficient, I hope 
that today will provide an opportunity to remember how great 
the consequences are of Tunisia's quest for democracy.
    As we saw in 2011, the future of Tunisia will be decided by 
the Tunisian people, but if democracy fails, there are no good 
alternatives. Therefore, I believe that the United States has a 
vital role to play in helping to assist the democratic, free, 
and stable Tunisia and I look to our witnesses to provide your 
perspectives on what is happening inside the country, your 
reactions to U.S. response so far and your recommendations for 
Congress and the United States Government. I thank you, Madam 
Chairman, and I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Deutch. Thank you for your 
excellent statement. I now would like to grant 1-minute opening 
statements to Mr. Schneider, followed by Ms. Meng, and then Mr. 
Vargas. Mr. Schneider is recognized.
    Mr. Schneider. In the interest of time as votes have been 
called, I will yield my time back.
    Ms. Ros-Lehtinen. Thank you. But we have got plenty of 
time. Don't worry. Ms. Meng?
    Ms. Meng. I yield my time, too.
    Ms. Ros-Lehtinen. Thank you. Mr. Vargas.
    Mr. Vargas. I also yield my time back, but I do thank the 
people that we have here today and look forward to their 
testimony.
    Ms. Ros-Lehtinen. Thank you so much and with that, I am 
going to introduce the panelists and then we will come back and 
hear from you.
    First, we welcome Mr. Scott Mastic, the Regional Director 
for Middle East and North Africa at the International 
Republican Institute. In this capacity, he has helped grow this 
division into the Institute's largest regional division. Mr. 
Mastic has led various democracy assistance efforts in the 
region and served as an election observer in many countries, 
including Tunisia, Egypt, Afghanistan, and Pakistan.
    Next, we welcome Mr. Leslie Campbell, Senior Associate and 
Regional Director for the Middle East and North Africa at the 
National Democratic Institute where he has directed programs in 
this region since '96. Mr. Campbell has 25 years of experience 
in international development and parliamentary governance. 
Thank you, sir.
    And third, we welcome Mr. William Sweeney, who is the 
President of the International Foundation for Electoral 
Systems. Prior to this position, Mr. Sweeney served on the 
Board of Directors and is chairman of IFIS. Mr. Sweeney has 
observed elections in the Philippines, Russia, Nicaragua and 
Jamaica. We thank all of you for being here and when we come 
back, if there are any members who would like to make an 
opening statement, I will recognize them first and then we will 
hear from you, gentlemen. And with that the subcommittee is 
temporarily on vacation.
    [Off the record.]
    Ms. Ros-Lehtinen. The subcommittee has reconvened. Thank 
you so much. Mr. Mastic, we will begin with you for your 
remarks and as I said, all of your written statements will be 
made a part of the record. Thank you.

 STATEMENT OF MR. SCOTT MASTIC, REGIONAL DIRECTOR, MIDDLE EAST 
      AND NORTH AFRICA, INTERNATIONAL REPUBLICAN INSTITUTE

    Mr. Mastic. Chairman Ros-Lehtinen, Ranking Member Deutch, 
members of the committee, thank you for the opportunity to 
testify today on the important topic of Tunisia, a country that 
I remain guardedly optimistic about despite a number of 
challenges that continue to confront its transition.
    Ms. Ros-Lehtinen. If you could put the microphone a little 
bit closer.
    Mr. Mastic. How is that? There. I offer this sense of 
optimism based on what we have seen during the past 3 years and 
especially as a result of the interactions among Tunisia's many 
political stakeholders. Unlike Egypt with a troubling 
authoritarian behavior of the country's Muslim Brotherhood, 
irrevocably polarized relations between the political forces, 
or like Libya where we see an absence of security making a 
successful transition incredibly fragile or like the horrific 
effects we see from Syria's civil war, what we see today in 
Tunisia is a continued effort from political stakeholders to 
reach agreement through negotiation.
    This is not to say we can take for granted Tunisia will be 
successful and to the contrary, the country has reached its 
most pivotal make or break point yet and currently stands in an 
impasse.
    Today, I would like to briefly elaborate on what I see as 
three key factors to the transition either moving forward 
successfully or going in a different, less optimal, direction. 
First is the political track of national dialogue agreed to by 
the current government and opposition parties and moderated by 
the so-called quartet of civil society entities. Key actions 
related to the ultimate passage of a Constitution and electoral 
law and appointment of an electoral commission extend from the 
dialogue's success, but ultimately these important benchmarks 
will not be achieved unless the political parties agree on a 
caretaker prime minister and government that can shepherd the 
country to elections.
    Recent public comments from UGTT, Tunisian trade union 
leaders which are mediating the dialogue, suggest the primary 
political parties remain committed to the process and that it 
may resume even this week or next. In the current state of 
negotiation, the key factor appears to be neither side 
believing it can leverage too much advantage or dig in for a 
better deal. The willingness of the main parties to reach 
agreement at the negotiating table is of paramount importance.
    Second is security, specifically the threat posed by 
Islamic extremists. We have seen the poisoning effect that acts 
of terrorism have had on Tunisia during the past 3 years. This 
has contributed to polarization between Islamists and 
secularists with the latter believing the Ennahda-led 
government has been too slow to recognize the threats posed by 
jihadists. Future acts of terror and especially at this 
critical moment could derail the national dialogue before a 
successful interim government is put into place. This would 
leave Tunisia in a free fall. Therefore, time is of the essence 
in avoiding a potential terrorist-induced crisis.
    Third, and perhaps most important, is the continued 
patience Tunisian citizens are willing to show toward their 
political leaders. My sense is that the patience of ordinary 
Tunisians directly relates to the state of the country's 
economy and the belief that the transition offers at least the 
promise of economic betterment in the future. How long 
Tunisians will accept the current conditions is unclear, but 
Tunisia's politicians should not assume limitless good will. 
And the indicators at present are not that good. A public 
opinion poll conducted by the International Republican 
Institute in October found that 79 percent of Tunisians say the 
country is going in the wrong direction, the highest yet 
recorded number. The economy and specifically jobs continues to 
count as the most important problem as Tunisians see it. 
Disturbingly in the October survey, an increasing number of 
respondents, 29 percent, say they are having a hard time 
feeding themselves and their family, while 48 percent say they 
are making just enough to get by.
    Future Tunisian Governments must prioritize economic 
issues. Addressing these issues, though, is not possible with 
the current political impasse. As with the other factors, it 
seems the longer this impasse continues between the major 
political forces, the more frustrated Tunisian citizens may 
become based on their desire for better life opportunity.
    With respect to our programming and democracy assistance, 
IRI was registered by the Tunisian Government in November 2011 
and has been able to pursue active programming with all 
political stakeholders throughout the country. My continued 
optimism about Tunisia is linked to what we are experiencing 
through those interactions. Programs from the international 
community are widely welcomed which is always encouraging, but 
from our vantage point what distinguishes Tunisia is the 
seriousness shown by the political parties and civil society in 
developing their organizations.
    Tunisia's civil society is playing an important role in 
advancing human rights, women's rights, and transitional 
justice. And we see key civil society groups in a central 
mediation roles attempting to advance the transition. I cannot 
stress how important this point of wanting a democratic system 
to emerge is. The Arab world continues to lack a successful 
working model of elective democracy and when one looks across 
the region, we are hard pressed to see something with more 
promise emerging sooner elsewhere.
    Even as the current dynamic is uncertain, I believe Tunisia 
remains the best hope for a democratic political transition in 
this region. Thank you.
    [The prepared statement of Mr. Mastic follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much. Mr. Campbell.

STATEMENT OF MR. LESLIE CAMPBELL, SENIOR ASSOCIATE AND REGIONAL 
  DIRECTOR, MIDDLE EAST AND NORTH AFRICA, NATIONAL DEMOCRATIC 
                           INSTITUTE

    Mr. Campbell. Madam Chairman, Ranking Member Deutch, 
members of the committee, thank you for the opportunity to 
appear today to testify in the state of Tunisia's political 
transition. Since the toppling of Zine El-Abidine Ben Ali, 
Tunisia has made significant progress toward establishing 
democratic institutions. While Tunisia's transition is today 
more vulnerable than at any point thus far, there's reason to 
hope that the country's experience can and will continue to 
serve as an inspiration to those beyond Tunisia's border.
    Serving as part of the leadership of NDI's international 
observation mission in October 2011, I witnessed firsthand the 
hopes that many Tunisians placed in the national constituent 
assembly elections that they would represent a solid step 
toward a more democratic future. Ennahda's moderate Islamist 
leadership sought to form a broad coalition to share the 
responsibility of governing. The ruling ``troika'' coalition 
formed by Ennahda and two center left parties, took power in 
December 2011. In these 2 years, the coalition has struggled 
but remained intact, despite the often strained communication 
among its members and increasing pressure from opposition 
political parties.
    If there is an early lesson in the post-Arab Spring 
aftermath it is that coalitions and consensus building are far 
preferable to winner take all politics. Egypt went the route of 
winner take all and paid the price. Tunisia has chosen thus far 
to be more inclusive. Unfortunately, the ``troika'' government 
has struggled to address the growing economic and security 
challenges as the Tunisian economy has generally declined or 
stagnated. Last week, the Tunisian currency hit an all-time 
low. New figures show the unemployment rate hovering just 
around 16 percent with university graduate unemployment closer 
to 34 percent. Thus, the young Tunisians who are widely 
credited with bringing about the revolution are those being 
left behind. Some Tunisians have accused Ennahda of failing to 
crack down on violent extremism, a perception that was fueled 
by the assassination of two leftist politicians, but as the 
assassinations caused the political standoff between Ennahda 
and secular opposition, there were efforts to broker a 
settlement which led to the signing of a national dialogue 
process to address four fundamental issues. First, the 
composition of a new apolitical technocratic government; two, 
reaching agreement on the final sticking points in the 
Constitution; three, appointing the leadership of an 
independent election administration; and four, agreeing on the 
sequence and timeline for Presidential and parliamentary 
elections.
    Tunisian views about the dialogue are clear. To begin the 
process of restoring public confidence, all responsible 
political parties much return to the negotiation table 
immediately. They must work to complete the constitutional 
phase, making it possible to hold elections. There has finally 
been movement on the constitutional process and the naming of 
an interim prime minister. Yesterday, opposition members of the 
assembly returned to hash out remaining disagreements. There 
are also rumors that there is finally a compromised candidate 
for prime minister.
    Despite Tunisia's numerous challenges, reasons for optimism 
remain. The transition has moved forward in fits and starts, 
but it does remain on track. The Tunisian value of consensus 
over expediency remains a strength. There is a growing 
perception though in Tunisia that the world has lost interest 
in this important democratic experiment. The international 
community should enhance its support of the Tunisian transition 
emphasizing that an immediate return to national dialogue 
negotiations is essential to demonstrate commitment to 
democratic principles and fundamental freedoms. The mediation 
team, in my opinion, should announce a definitive date for the 
dialogue to recommence and stress that any party that fails to 
participate will forfeit its right to contribute to decisions.
    Tunisian politicians must conclude their agreement to 
nominate a caretaker prime minister and that may happen soon. 
They must finalize the Constitution, appoint the election body 
and outline the steps, the next steps in the transitions. These 
steps are absolutely required to address pressing citizen 
priorities including salvaging the economy and ensuring safe 
and secure communities. While there is an urgent need for more 
international economic support and assistance and I hope this 
is addressed more in this hearing, the United States should 
also strongly and consistently support popular demands for 
transparency, accountability and freedom. This means a 
continued commitment to pluralism and civil society and 
speaking out very clearly with respect to the on-going threats 
to freedom of expression.
    Thank you, Madam Chairman, members of the committee.
    [The prepared statement of Mr. Campbell follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, Mr. Campbell.
    Mr. Sweeney. If you could push that button on the mike and 
hold it close to your mouth. Thank you.

 STATEMENT OF MR. BILL SWEENEY, PRESIDENT AND CHIEF EXECUTIVE 
    OFFICER, INTERNATIONAL FOUNDATION FOR ELECTORAL SYSTEMS

    Mr. Sweeney. I thank you for the opportunity to testify in 
this hearing on Tunisia's transition and democratic 
development. The International Foundation for Electoral 
Systems, IFES, has received grants from the U.S. Government and 
other international donors to conduct an on-the-ground 
assessment of the electoral environment and provide technical 
expertise to the Court of Accounts, civil society, various 
ministries and the country's first independent election 
management body, the Independent High Commission for Elections, 
known as the ISIE.
    On October 23, 2011, Tunisians held their first democratic 
elections and elected a national constituent assembly called 
the NCA. The elections were administered by the ISIE. They were 
seen as inclusive and competitive. Public confidence was high 
in the electoral process. The ISIE received high praise for its 
independence, commitment, honesty, and successful delivery of 
elections in a short time frame and under difficult 
circumstances. Since those elections, frustration and 
disappointment have dominated. Progress in adopting a new 
Constitution for Tunisia and the institutional legal framework 
for elections has been slow. Parliamentarians elected in 2011 
have received most of the criticism. Opposition parties are now 
contesting the legitimacy of any legislation and calling for 
dissolution of the NCA. Two political assassinations of 
prominent leaders have adversely affected the potential for any 
political consensus.
    As a result, Tunisia has yet to adopt a new Constitution 
and develop a new legal framework for the upcoming elections.
    ISIE's 2011 mandate ended in May 2012. This means no 
electoral preparations, no election law, no election 
commission, no budget, no plan. There remain enormous 
challenges and risks and the country is losing valuable time in 
the current political stalemate. While minor difficulties with 
the 2011 elections were largely accepted in stride by the 
population, the same tolerance may not be forthcoming for the 
next elections. Simply put, if the administration of the next 
election does not meet public expectations, a lack of trust in 
the results is possible. Internal stability and the nation's 
transition will be threatened.
    For the 2011 elections, IFES provided technical expertise 
and guidance to the ISIE, trained election management staff, 
established the ISIE media center to announce results and 
election-related communications before, during, and after 
election day, assisted the ISIE in design and distribution of 
10,000 posters and 2 million fliers for voter education efforts 
throughout the country, partnered with the Ministry of Social 
Affairs to communicate with illiterate voters on the election 
and how to vote, and trained members of I Watch, a youth-led 
civil society organization to be the first independent 
organization to monitor campaign finance expenditures during 
the election.
    After the 2011 elections, IFES focused on ISIE's 
performance and lessons learned. With funding from U.S. AID, 
IFES carried out a technical evaluation of the NCA elections 
and in-depth analyses of the legal framework for elections and 
campaign finance regulations.
    Thanks to support from the U.S. Government, IFES has 
remained in country and continues to play a role in helping 
Tunisians in their democratic transition. IFES meets regularly 
with legislators to advise them on electoral legal reforms; 
trains judges in charge of monitoring campaign finance 
expenditures; and works closely with local civil society 
organizations to help them all be advocates for inclusive 
democracy in expectation of the next round of elections in 
Tunisia under a new ISIE. With support from the European Union 
and the United Nations Development Programme, IFES sustains the 
dialogue and debate among Tunisian political stakeholders on 
voter registration, electoral system design, election 
management bodies, and campaign finance, a process which has 
been underway all year.
    Madam Chairman, the Arab Spring started in Tunisia. Tunisia 
is the furthest along in its transition, has the most engaged, 
robust, national conversation on democracy and has the greatest 
institutional capacity to succeed. Tunisia's success will be a 
model for other transitioning countries in the region and in 
the world. Despite setbacks, Tunisians are highly engaged in 
the political dialogue, not violence.
    I was in Tunisia this past February. IFES conducted the 
largest attended forum in the region on voter registration and 
the value of a trusted voter registrar. The next few months are 
critical as Tunisia appoints a new government, selects new 
election commissioners, finalizes its Constitution and develops 
a new electoral law.
    Madam Chair, thank you for putting a spotlight on Tunisia 
today. This is a critical time in the history of the country. 
It is critical that there be a focus on the opportunity for 
democracy in this region as well as the threats. Thank you, 
Madam Chair.
    [The prepared statement of Mr. Sweeney follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Ms. Ros-Lehtinen. Thank you, all three of you for excellent 
testimony and I will begin with a round of questions and I have 
many of them, so if you could jot them down and address 
whichever one you would like. As we have discussed, the 
national dialogue process has stalled, but the dialogue between 
opposing parties continues. No party has walked away completely 
from the process and they remain engaged in an attempt to 
reconcile their differences. One major achievement would be if 
the parties would come together and agree on a caretaker prime 
minister and cabinet. This could stabilize the country, and 
guide it through its next round of elections.
    How far apart are the parties on deciding on a prime 
minister? And what are the main obstacles that have prevented 
them from coming to an agreement?
    Mr. Mastic, I had the opportunity to review IRI's latest 
polling data from Tunisia from October and it states that 79 
percent of Tunisians believe things are headed in the wrong 
direction. Only 16 believe in the right direction. And when 
asked how much longer the national constituent assembly should 
take to complete its mandate, nearly two thirds of the 
respondents said less than 6 months and over three fourths said 
less than a year. And although we can agree that placing 
artificial timelines on such a delicate process is not the best 
practice, but giving the overarching trend of dissatisfaction 
how much longer do you think that this political stalemate can 
last before the political transition in Tunisia is permanently 
derailed? Time is clearly an issue for the Tunisian transition. 
And in this case we have economic, security, and political 
clocks all working against each other, all moving at different 
speeds.
    Do you gentlemen believe that the leadership can adequately 
address all three tracks at the same time? Or does it need more 
help from outside sources and if so, what does Tunisia need the 
most in order to ensure a successful transition? What programs 
do your institutions have in place to promote new elections to 
build local capacity? And finally, women's rights. Tunisia has 
been touted as a leader when it comes to women's rights in the 
Middle East and North Africa. Ever since Tunisia gained its 
independence as we discussed in '56, women have had an even 
more prominent role in society compared to the counterparts in 
neighboring countries and this was illustrated by the elections 
in 2011 of the National Constituent Assembly, with 27 percent 
of the seats won by women. But there are many reports of gender 
inequality, and violence against women. What would you say is 
the current status of women's rights in the country? Are 
women's concerns being evenly represented in the national 
dialogue and in the drafting of the Constitution?
    We will begin with Mr. Mastic.
    Mr. Mastic. Thank you. With respect to the process and how 
far apart the parties are, I think at this point really it has 
come down to who the prime minister will be. And the 
polarization that has grown in Tunisia over the last year 
between the major parties and specifically Ennahda, the 
Islamist party, has made the selection of that individual very 
difficult because one does not want to be in a position of 
having given advantage to the other.
    Based on the various iterations of governments, Tunisia has 
been through since the 2011 revolution, there are definitely 
personalities I think that both can agree to. Neither have 
walked away. The public statements of the mediating body right 
now suggests they are very close to identifying that 
individual. So I don't think they are far apart and I think 
that you could see progress on this very soon.
    Ms. Ros-Lehtinen. Thank you so much. Mr. Campbell?
    Mr. Campbell. Well, I would agree that rumors speaking to 
NDI's office director in Tunisia today, there are very strong 
rumors on the street that a name has been put forward. I won't 
mention the name now because who knows if it will happen, but a 
name is put forward. It has not been rejected. So there is 
clearly talking.
    I should also mention just as we were speaking, Sheikh 
Mourou, who is the vice president of the Ennahda Party, walked 
into this meeting room and I think it is significant in the 
sense that I met with him. He has been in Washington I think on 
a mission to say look, we are reasonable. We want this to work. 
We want this to be a model. And there is a recognition, I 
think, among most Tunisians that they do not want this to fail, 
that they want Tunisia to be seen as a democratic model. It 
would be the only one other than Israel and it is very 
important to Tunisia. So there is good will.
    I think the message though of Tunisians, certainly that 
come to Washington, the message that I would like to leave 
today is that without economic help and you addressed these 
different tracks, without people's lives improving, all the 
election commissions and political parties and so on in the 
world won't succeed. Of course, as organizations work heavily 
on the political process which important governance is vitally 
important, but I think we would be remiss if we didn't say that 
politics will fail and again talking to leaders in Tunisia, 
they have said very clearly, the cupboard is bare. They don't 
have the money in the budget to cover their expenses. They 
don't have the prospects. The currency is at a low. The credit 
rating has dropped. Their borrowing costs have gone up. So I 
think if there is a track that is not being adequately 
addressed, it is the economic track. The political track, I 
think, will take care of itself.
    The question of women, my answer would be that on the 
surface, Tunisia continues to lead: 27 percent of the members 
of the constituent assembly are women. At the top level, at the 
elite level you will find many, many women in leadership, women 
leadership positions. But I think if you scratch below the 
surface and especially if you get away from the capital, in the 
interior you see a very, very different reality, much more 
typical, traditional Arab world type of situation. And I think 
redoubling the efforts on human rights, on women's rights is 
absolutely important. I think we can't be--we shouldn't be too 
fooled by sort of the flash that you see in the capital.
    The one thing I would add at the end is that some of the 
statistics that were put forward under the rule of Ben Ali were 
blatantly false. There was a sense, maybe, that women had made 
greater achievements than they actually had in reality. They 
sort of inflated the statistics, for example, of literacy. 
Literacy among women is much, much higher than Ben Ali's 
government had ever let on. So investing in that area I think 
is vitally important.
    Ms. Ros-Lehtinen. Thank you very much. Mr. Sweeney?
    Mr. Sweeney. Madam Chairman, the problem of being the third 
speaker on this panel to those questions is I am in violent 
agreement with everything my two colleagues have said.
    Ms. Ros-Lehtinen. Nobody has said it quite as eloquently as 
you are about to say it.
    Mr. Sweeney. Thank you very much, I am going to give it my 
best shot. What I would say are two things. Number one is that 
if you look very closely at what happened in 2011, the decision 
makers seemed very, very far apart and because of the very 
robust engagement, when they came to agreement, they came to 
agreement, very, very quickly. And so they were able to conduct 
their election in October 2011. They were able to make 
decisions very quickly because much of the spade word, much of 
the discussions had already taken place and there was a 
consensus and you didn't have to revisit every decision. So I 
do have great hope that when they come to consensus, they can 
come to consensus very quickly.
    Number two, the point I would make on women is in complete 
accord with my colleague. However, you should know that you 
have a colleague who is the chair of the election management 
process in the Parliament. And she is one of the most engaged 
legislators I have met over the course of the last year. She is 
very conservative. She is very traditional, but she also is 
very aware. I had a long dinner with her one night about the 
importance of more than 50 percent of the population having a 
political voice and more than 50 percent of the population in 
Tunisia having their rights fully exercised.
    Ms. Ros-Lehtinen. Thank you very much. Excellent answers. 
Thank you. I am pleased to yield to my friend, Mr. Deutch of 
Florida.
    Mr. Deutch. Thank you, Madam Chairman. For the last couple 
of years, the administration has proposed to implement a Middle 
East and North Africa incentive fund. And in addition to 
allotting money for contingencies, the fund was going to build 
on a model of centers for good governance. That would result in 
additional foreign assistance similar to the Millennium 
Challenge Corporation model. Presumably, that would be a big 
benefit to Tunisia. I support the idea. I like the idea of 
allocating significant and flexible resources to the region, 
but like others I have some questions about the details of the 
fund. I am curious to know from the three of you what your 
opinions, since you are really implementers here, what your 
opinions are of this fund. Is it something that you would 
support? How would it be used and ultimately how could it be 
beneficial to Tunisia?
    We will start with Mr. Sweeney, so he doesn't have to go 
last this time.
    Mr. Sweeney. Congressman, I am not particularly familiar 
with the details of the implementation of the fund. However, 
what I know is that if there is a reward for good governance 
that results in the type of institution building that the 
Tunisians are famous for, that the Tunisians ought to be able 
to meet the metrics and expectations and certainly it is a 
society which desperately needs continued investment and 
engagement and has shown over time that they can perform 
economic miracles within their own country. So I would be 
positive of both the metrics and very confident of the ability 
of the Tunisians to meet those metrics and use whatever foreign 
assistance from the United States or the European Union or any 
other donor to maximum advantage to solve what Les referred to 
as the more serious crisis, the crisis of unemployment and 
investment in the society.
    Mr. Campbell. Thank you. Well, I would strongly support the 
idea of an incentive fund, but just to go backwards for a 
second, I should say first of all that the administration, 
congressional resources, congressional interest in Tunisia up 
until recently has been very, very strong. I think it is still 
strong from the funding side, certainly for what we do. None of 
us went into great detail of what we do, but the support has 
been strong for the process, for training political parties, 
working with the election commission, working with women, human 
rights organizations, domestic civil society organizations. 
That has ben quite strong.
    What is missing and I think this is germane to the 
incentive fund question is something in addition to that. So I 
think the idea that if the country, and I think there is 
tremendous willingness in the country, if the country is going 
to behave democratically, seek consensus as they have, govern 
itself well, as you said, Millennium Challenge style, a way of 
incentivizing that performance would be great.
    I know in our conversations, we are often dealing with very 
high level political leaders in Tunisia. Their comment back is 
we really appreciate what you do. Over the long term this is 
fantastic. But if we can't provide evidence that people's lives 
are improving, this is all going to go backwards. So I think 
the incentive fund is necessary. I think U.S. diplomats often 
feel a little hamstrung right now. They have a lot of talk. 
They don't have a lot of scratch, basically, to use a 
colloquial term.
    Mr. Deutch. And Mr. Mastic, before you answer, Mr. Sweeney 
talked about donors and Mr. Campbell talked about scratch. We 
often have these discussions without acknowledging that there 
are other countries that would like to be involved, that would 
like to exert influence in a country in transition like 
Tunisia. Am I right? Is that the case here? And who are they 
and what role are they playing and trying to play?
    Mr. Mastic. Definitely others are involved. So of course 
the IMF has given an important loan stabilization program to 
Tunisia, so that is a key actor right now. The European Union 
also is very much involved, invested in Tunisia. According to 
the EU's neighborhood policy, they see Tunisia as a very 
important country in transition in the region.
    I will say though that I think from the Tunisians that we 
interact with, there is a perceived interest and value in an 
ongoing and robust U.S. engagement in their country. And as I 
think it holds the best promise among the transitions 
occurring, I think we benefit a lot from that engagement.
    Quickly, just with respect to the incentive fund, I don't 
know that many details about the fund. I think one of the 
challenges with the idea of the fund is that the details about 
what, in fact, it would do have been a little bit murky. So 
that's something to obviously take into consideration. But the 
idea of incentivizing good governance in Tunisia, of course, is 
something to be supported. I also would say that with whatever 
types of programming that will be supported through the fund, 
we have to have it be reflective of a transition process and 
support for democratic development as well. I will just put 
that in a very specific set of data.
    You know, in the initial revolution, we did a poll 
immediately after. And 79 percent of the people at that time 
said the country was going in the right direction. Okay, that 
number was never going to stay that high. And it slowly went 
down in the months that followed. At two points, the downward 
trend reversed itself. One was shortly before the NCA election 
when people were essentially 50-50 on whether the country was 
going in the right direction. And then immediately after that 
election, the number shot back up in a positive response rate. 
And the only time it shot back up in a positive response rate. 
So the political process is very much tied to the other 
challenges Tunisia faces and needs to be part of any type of 
fund or incentivation of good governance and behavior in the 
country.
    Mr. Sweeney. Mr. Deutch, if I could add one or two specific 
points. Swiss foreign assistance and British foreign assistance 
have been part of our program in Tunisia. We have worked very 
closely with a variety of elements within the European Union 
neighborhood program and some of their democracy assistance. We 
have also had a terrific partnership with the United States 
Development Fund on all of the aspects of voter registration, 
election management. That was one of the meetings that I 
referred to in my testimony. But the U.S. Government should be 
commended at this point because the U.S. Government has had 
staying power in terms of the programs that it has been 
supporting in Tunisia where some of these others have been very 
limited projects. But there are other organizations, other 
governments, other interests involved.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch. Thank you, 
gentlemen.
    Mr. Cotton of Arkansas.
    Mr. Cotton. Thank you and thank you all for appearing today 
on this matter. So I believe that one reason that America has 
been so great and so prosperous for so long is that we are not 
merely a democracy, but a constitutional democracy. Too many 
other countries around the world sometimes with too much 
support from the West reduce good government to elections which 
are certainly very important and they are the principal way to 
hold the government accountable. But they underplay the 
significance of constitutional forums, both the structures of 
government that we have in place here like the separation of 
powers, unitary executive, an independent judiciary and 
prosecutor, as well as individual rights, rights of freedom of 
speech and religious and assembly and immunity from arbitrary 
and indefinite arrests and so forth.
    Mr. Sweeney, I will let you start off and then Mr. Campbell 
and Mr. Mastic, I will let you maybe respond.
    You had said in your testimony that Tunisia still does not 
have a Constitution. The assembly needs to adopt one. I would 
just like to get your perspective on the prospects for a 
Constitution that has both those kind of structurals and those 
individual rights, guarantees.
    Mr. Sweeney. I am very positive that the Tunisians are 
going to adopt a Constitution. They have a long history of 
institutions and regard for those institutions. When I was in 
Tunisia, I met with representatives of the course that were 
engaged in reviewing campaign finance reform issues. I met with 
different ministries. I met with a great number of 
parliamentarians. In just about every meeting, there was great 
regard for individual rights and the need for the Constitution 
and the behavior of the institutions to reflect and open 
democratic society. So generally, sir, I am very, very positive 
that they are moving in the right direction. And more 
importantly, from a perspective of our history, many of these 
institutions are in place and have a robust history and have 
very committed public servants who are leading them right now. 
So the debate is fully engaged. We are not dealing with an 
artificial process. We are dealing with a country which has a 
great, robust, strong history and great institutions.
    Mr. Cotton. Would you care to venture a guess on a 
prospective timeline?
    Mr. Sweeney. I would concur with my colleague, Mr. 
Campbell, that it is possible we are going to see the first 
step which will be the caretaker government put in place. There 
has been more than enough debate and dialogue within the 
society and reflecting back on 2011, they move very, very 
quickly once they come to consensus.
    Mr. Cotton. Thank you. Mr. Campbell?
    Mr. Campbell. Sure. Maybe I can, since you made a 
philosophical point, maybe I will respond with a bit of a 
philosophical point which is this idea of a concentration of 
elections. I think there is some truth to that, that in many 
organizations people have been guilty of that. And there are a 
few lessons I think of the Arab Spring thus far and one is that 
rushing into competitive, contested elections is a mistake. Why 
is that? Because as you say, in part, you don't have the 
structures, you don't have the bedrock to work from. But 
secondly, you have this big tumult in the country, an uprising. 
And then the first thing that happens in the case of Egypt 
within say a month or 2 months is that we throw political 
contestants with very little experience into what appears to be 
a winner take all process and you raise the stakes so high that 
the tension goes through the roof and I think that has been a 
big mistake.
    One thing that Tunisia has done well, among others, but has 
done very well is it has kind of let this process play out over 
time and I know that we sometimes become impatient with that, 
delays and so on. But I actually think the delays are okay. As 
long as the delays are not there to the benefit of one group, 
one partisan group or another.
    One thing that is----
    Mr. Cotton. Can I take back my time for a moment?
    Mr. Campbell. Please.
    Mr. Cotton. Just to ask you to elaborate on that point, 
that is a happy side effect of the delays is that you have time 
for mediating institutions like political parties or a free 
press to come about. I was a soldier in Iraq. I saw that happen 
there as well over the years as they were preparing for round 
after round of election. Have you seen those kind of mediating 
institutions maturing in Tunisia in a way they didn't have a 
chance to in Egypt?
    Mr. Campbell. Much more so. So you have a very strong 
opposition and one of the interesting side effects of the time 
is that the opposition which was very weak during the election 
is now very strong which has actually caused the standoff. 
Ennahda is unable to impose its will. That is worrying for the 
economy because you have got this stalemate. But in the long 
run it may be okay. Tunisians are serious about the 
Constitution maybe because of the French influence. They see a 
document like that as very important.
    I will just throw in a little comment about Egypt. Egypt 
has for the second time drafted a Constitution in 2 months and 
they are going to have a referendum 25 days later. That is not 
how it is done. I think Tunisia, as much as it is unsettling, 
probably are doing it in a much better manner, but it would be 
terrible if the economy in the meantime falters and fails.
    Mr. Cotton. Thank you all.
    Ms. Ros-Lehtinen. Thank you, Mr. Cotton.
    Mr. Schneider of Illinois.
    Mr. Schneider. Thank you. I want to thank the witnesses for 
your insights as you have highlighted as an important issue for 
not just the region, but for the United States.
    Mr. Mastic, you enclosed in your submitted comments with a 
line and I will quote, ``Tunisia remains the best hope for a 
democratic political transition in the Arab world.'' You 
touched on this sense within Tunisia of declining confidence of 
direction, but plateauing. This may not be a fair question, but 
does the hope remain for the Tunisian people and what are their 
aspirations? What would the outcome that they want to see that 
would change that curve in an upward direction?
    Mr. Mastic. Sure. Certainly, some of the economic 
aspirations that I think people have, expectations that they 
have are not achievable, not in short order. There is no 
question about that. However, with movement on the political 
track, we consistently see renewed confidence in the democratic 
process. And even as satisfaction with where the country is 
headed right now is at an all-time low. You still see a slight 
majority supporting a turbulent democratic system that is some 
other model. And so I do think that it is very much rooted in 
sort of a general sense of hope, but that could quickly turn 
when you see progress on the political track.
    Mr. Schneider. The idea of hope springs eternal, but 
without hope, all things are lost is important. The future, and 
I am going to turn to Mr. Sweeney. The future depends so much 
on those institutions and you have mentioned a couple of times 
the strength of Tunisian institutions. What are some of the 
ones that you have the most confidence in? What are some of the 
institutions that we should be watching a little more closely 
and working to reinforce?
    Mr. Sweeney. Most confidence is sort of hard to measure 
right now because the country is really at a stalemate in terms 
of making progress on a whole series of political decisions. So 
it is relatively difficult to give you an answer and say A is 
better than B.
    In our particular area of expertise, IFES, we are going to 
be starting all over again. Now the good news and one of the 
reasons why I say they will move relatively quickly is the 
Parliament already has all of its 36 candidates. Nine of them 
will be appointed to constitute the next election commission. 
That is part of the dialogue that is going on. However at the 
same time, all the investment that was made in 2011 in terms of 
the election commission has basically gone away. The staff that 
we trained has moved on to other jobs because the election 
commission's mandate, budget, everything expired in May 2012. 
So we are going to be starting over again. And I think that is 
part of the frustration that is expressed at the political 
level that is also showing up at the economic level. Great 
progress was made. Aspirations, dreams, hopes got to 70 percent 
and then all of a sudden, the process got gridlocked. And that 
is where we are right now. I have great hope that once they get 
to consensus, they will again demonstrate the ability to move 
very, very quickly.
    Mr. Schneider. Mr. Campbell?
    Mr. Campbell. Well, the quick part of the answer is that we 
know which institutions Tunisians don't trust and that don't 
work and that is basically the security institutions and the 
police. It is partly not their fault in the sense that it has 
been difficult to restore order, but partly the trust is not 
there because there were decades of experience of the security 
services, interior security being used for repression.
    On the other hand, the military is still by far the most 
trusted institution. Unlike in Egypt, it has shown no 
inclination to get into politics. It really is genuinely above 
the fray. And so those are the sort of polar opposites in terms 
of institutions. But Tunisians do have trust in government. The 
ministries have traditionally operated reasonably well. There 
is a history actually of technocratic ministers. It is 
interesting that the ministers, immediately post transition, 
many of them were drawn from previous governments. They were 
seen as able figures. So I think the actual ministries are well 
regarded. The military is well regarded. But the security 
services are not, I think is the basic answer to the question.
    Mr. Schneider. I will close with this. I am almost out of 
time, but the need to reinforce those institutions to work with 
the military to try to establish a credible security 
infrastructure, what policy recommendations, and you can submit 
these later, what policy recommendations for us does that lead 
to? And what are the timelines that would be realistic? Because 
it is the time and space to build those institutions that I 
think are going to become critical going forward.
    I will close with Mr. Mastic's remark to ensure that 
Tunisia is not just a hope for democracy, but an accomplishment 
of a democracy. Thank you very much.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Schneider.
    Mr. Collins is recognized.
    Mr. Collins. Thank you, Madam Chair. I appreciate it. It is 
a normal Wednesday around here with markups and everything else 
going on, so I appreciate getting in here.
    I think the story in this arena is 3 years and it is 
amazing what has happened in these 3 years, not just in this 
location, but across the world.
    My question is fairly brief, but you can answer how you 
want to. It really deals with the economic issues. What is the 
likely course of Tunisia's economy and what is the appropriate 
role of its international partners in helping Tunisia to 
promote economic growth and job creation and to address 
regional inequalities which I think is one of the issues. And 
then really what steps, if any, can or should the United States 
take to promote bilateral trade and investment.
    It started sort of as an economic in some way, and I think 
the future will be based on economic and how we go forward, so 
I would just love to hear what you think.
    Mr. Mastic. Sure, I will respond briefly to that. IMF 
assistance is important for macroeconomic stability in Tunisia. 
That is happening. I think efforts to promote regional 
integration, regional economic integration are an important 
part of the solution to both the jobs and economic growth 
problems in Tunisia and elsewhere in the Maghreb.
    And then lastly, with respect to the United States, efforts 
encouraging U.S. investment by U.S. companies and to lower the 
barriers for U.S. companies in Tunisia are important.
    Mr. Collins. I want to follow up, but I want to get to you 
as well. You mentioned the regional aspect there, especially 
with the instability that is inherent right there, what can be 
done to overcome that? What can be done to encourage it even 
with Europe, what can we do there? Because you mentioned that 
and it is an interesting concept.
    Mr. Mastic. Sure. The obvious factor here is with Libya you 
have a potential economic giant that can really help with 
respect to growth in the region, jobs creation. But the 
security challenges are a serious obstacle to that. So it is 
sort of like you can't address something simply at the economic 
level. There has to be a redoubled effort on the security level 
as well.
    Mr. Collins. Mr. Sweeney or Mr. Campbell?
    Mr. Campbell. I was going to say that is a great answer 
because I was privileged to go shortly after the transition to 
Tunisia with Raj Shah from USAID and looking at economics, not 
normally my field. And one of the things that sort of struck me 
is just imagine Tunisia's human resources and youth, educated 
youth, highly educated youth, 34 percent unemployment rate 
among college graduates. Marry that to Libya's wealth, enormous 
wealth and Egypt's population and sort of consumer possibility. 
It is not going to happen soon, but you can imagine a North 
Africa union and there are some talks about this, a North 
African union being a really strong economic force with Algeria 
and Libya's wealth, Tunisia's people, and Egypt's population.
    In the immediate term, it is tourism and agriculture. 
Tourism was a driver of the economy, a main driver. In touring 
Tunisia with Raj Shah, we saw a lot of high-tech agriculture 
and science, but Tunisia is very, very fertile, can feed its 
own people, already or did export agricultural products. So I 
think short term is tourism and agriculture. Long term is 
opening the borders between the countries in North Africa.
    Mr. Sweeney. Again, sir, I am going to concur with my 
colleagues. I will point out that tourism is a good 10 percent 
of all of the county's economies and sources of foreign 
exchange that you referenced. Tourism directly goes to whether 
or not the local population feels that they have a government 
that works and provides them with a modicum of security as well 
as a message to tourists as to whether or not they can travel 
there in safety which means that you have to double down on 
security and you have to double down on protection of 
infrastructure if you're going to try and develop a regional 
economic framework in terms of either oil, natural gas, or any 
other major commodity.
    Mr. Collins. I think what is interesting there and you just 
said something and my background has a lot of counseling 
involved. And the very thing I tell the people who have a 
problem is the very thing you need to fix is the very thing 
that is broken. And in a relationship, whether it be husband 
and wife or anybody else, is trust. And if that trust is 
broken, it is the very thing that you need to rebuild the 
relationship, but it is broken and it is like trying to run a 
marathon on a broken leg. You are just going to have that 
issue.
    Great answers. I think maybe a time for another hearing is 
if there was a joining together there, that is an interesting 
power shift that could occur from a lot of different areas, 
especially from Israel on over from that side, so that's 
another topic for another day, but I do appreciate you being 
here and those are answers that I think we need to continue the 
panel. And Madam Chair, thank you as always.
    Ms. Ros-Lehtinen. Thank you very much. Mr. Vargas of 
California is recognized.
    Mr. Vargas. Thank you very much, Madam Chair. I just wanted 
to briefly say to Mr. Sweeney, you are very correct about being 
the most engaged and charismatic chair we have and certainly 
rival the election committee chair in Tunisia, I assure you. 
She does a fantastic job here.
    I wanted to continue to ask the questions on the issues of 
the economy. You mentioned Libya. Libya is about half the size 
and population as Tunisia, I believe, and it is smaller in GDP 
than Tunisia. So I was curious when you said that Libya is a 
powerhouse for Tunisia, could you further comment on that? It 
caught me off guard there.
    Mr. Campbell. I don't know the exact figures, but just as 
an example, Libya has a budget surplus, a big budget surplus 
even without oil being refined and pumped at its previous 
levels. If Libya got its current capacity, and when I say 
current capacity, I don't mean building new capacity, I just 
mean the capacity that is up to speed, it would have, and 
again, unfortunately I don't know the exact figures, but it has 
a budget surplus of many billions of U.S. dollars. Whereas 
Tunisia, Tunisia has a big budget deficit. I believe it is 
something like $1/2 billion. I just heard this the other day so 
you're looking at something with billions in surplus versus $1/
2 billion in debt. And it is just oil wealth. It is that 
simple, small population oil wealth. But Libya had 
traditionally imported its labor. And they had bad relations 
with Tunisia. So you had the educated young people of Tunisia, 
highly technical. You have Libya that has always had labor 
shortages because of being a resource-based economy. And you 
have Libya with surplus cash. So there is a real potential 
combination there. And they are not enemies at all. But they 
don't have any--right now, there is no structure of inter-
country partnership.
    Mr. Vargas. Again, the curiosity for me because again, 
Libya's GDP is smaller than Tunisia's GDP, so it is maybe the 
case that the government is doing better. But I guess the 
reason I would say that is because it seems like the Jasmine 
Resolution began because of issues of unemployment, the youth, 
and obviously self-immolation was a trigger, but all these 
problems, and the problems still seem to be there. And with 
growing unemployment, well, I don't know if it is growing 
unemployment, but I saw that the growth rate did slow down this 
year compared to last year, so you do have the economy that is 
slowing down. I mean these problems are problematic. You have 
this tumultuous democratic system you are trying to fix, but 
underneath that, it is the economy. It is the old, it is the 
economy, stupid. So could you comment on that because I think 
that is the issue.
    Recently, we had the opportunity, a few of us, to go to the 
tribal areas in Pakistan. We saw that the roads were being 
built, dams were being built, and people seemed to have some 
hope for the future because things were getting done. And here 
it seems like, if I was a person there, it seems like, yes, we 
are going the wrong way, you know? I thought this was supposed 
to better. Could you comment?
    Mr. Sweeney. I will take the opening opportunity. In 
Tunisia, you have a real country. It is not a country that has 
been cobbled together in different ways over time and now that 
a dictator is gone in the case of Libya, different identities 
are coming out. You do have a country with Tunisia.
    The other important thing to remember about Tunisia is that 
it is extraordinarily rich in agriculture. As Les said, it can 
feed itself. I has a population, it has an educated population, 
but that population has not been given opportunity in the last 
few years. So there is enormous opportunity there if there is 
investment, if there is confidence, if there is trust, if there 
is some stability. That is not as easy to say about Libya. That 
is not as easy to say about some other countries that are in 
transition right now. So you are hitting the central point and 
the central strength and the reason for optimism about Tunisia 
and why it needs and deserves the attention is because it 
really is a country. It is not just a collection of peoples 
that were put together in a colonial map. And it does have a 
Constitution. It does have strong institutions. It does have a 
very robust political process.
    Mr. Campbell. I will maybe just add that there are so many 
challenges in these countries, including Tunisia, but there is 
a real political debate about the type of economy Tunisia will 
have. You have got very strong leftist parties that would 
prefer to continue the system of subsidies and sort of a state-
run or managed economy. The ruling party, Ennahda, is actually 
a little more free market oriented. And then you have the 
smaller liberal parties that are sort of radically free market. 
And there is a very, very strong debate. I don't think there is 
any consensus on which direction they are going to go with 
their economy so that is another issue to think about.
    Mr. Vargas. Thank you. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you, Mr. Vargas. Mr. Connolly of 
Virginia is recognized.
    Mr. Connolly. Thank you, Madam Chairwoman. Welcome to our 
panel.
    Mr. Campbell, would it be fair to describe Tunisia under 
the former President Ben Ali as a police state?
    Mr. Campbell. Yes, absolutely. I mean----
    Mr. Connolly. You would concur, Mr. Mastic?
    Mr. Mastic. Yes.
    Mr. Connolly. Mr. Sweeney, in light of that, I assume you 
don't dispute that. How vulnerably politically is Tunisia to a 
backlash in terms of opening up that an authoritarian figure 
comes along and says yes, but the price we are paying is a lack 
of order, chaotic politics, and we need to restore that order. 
What kind of appeal might such a figure have in Tunisia in your 
view?
    Mr. Sweeney. I think over the course of the hearing today, 
each of us has highlighted the fact that there are threats to 
Tunisia and those threats are somewhat based on the economic 
situation, somewhat based on the security situation, somewhat 
based on the current political stalemate. While at the same 
time each of us, I believe, has pointed out there is great hope 
and optimism and there is the opportunity for the entire system 
to work. But would you, if you were doing a risk analysis, 
would you completely discount the potential of an authoritarian 
figure coming back into play? No. No. You couldn't discount 
that. But I don't believe that any of us or at least to my 
knowledge have that as a potential outcome. In the short term, 
we are all very optimistic that the current, very robust 
political dialogue that is under way will result in the 
opportunity for a new Constitution, a new election process, and 
the voice of the people being heard and acted upon and 
hopefully within the next year.
    Mr. Connolly. And obviously, part of the answer to what 
you're saying is building enduring democratic institutions.
    Mr. Sweeney. Absolutely, absolutely. And Tunisia has a 
history of institutions which gives us great hope.
    Mr. Connolly. What are the implications in terms of the 
Tunisian evolution for the Arab Spring, the other Arab Spring 
countries?
    Mr. Sweeney. I think all of us have great hope that Tunisia 
will become the working model of a democratic system and a 
working model for other countries, other judiciaries, other 
parliaments, other election commissions, other news media, 
other civil society groups to use as their model going forward.
    Mr. Connolly. Mr. Campbell, Mr. Mastic?
    Mr. Campbell. Just one point on the previous question, a 
great part about Tunisia is that during the last election 27 
parties won at least one seat. The ruling party, Ennahda, or 
the plurality party I should say, won around 50 percent, but 
there are many, many other parties. So they didn't have the 
pendulum swing of Egypt where you had this kind of Mubarak to 
Muslim Brotherhood back to the former regime. So I am 
optimistic that they won't go back to a dictatorship.
    I think the best hopes in the Arab world right now in terms 
of models are Tunisia and Yemen. And even though they are very 
different countries what brings them together is the idea of 
consensus and coalition building. And so both have coalition 
governments. Both have a dialogue process, a form of dialogue 
process and both are seeking consensus. I think we have to be 
careful not to rush them into further elections. Let them play 
this sort of political negotiation out a little bit, don't 
rush, number one. But number two, both Yemen and Tunisia need 
this economic help and we, of course, were discussing that a 
lot here. It is not sort of in the cards, it seems in Yemen and 
Tunisia to get the economic help, but if we don't rush them. If 
we allow them to play out this kind of coalition building 
negotiation and we support them economically, we can have two 
models. But Tunisia will be the more modern--it will be the one 
that we recognize in terms of its inclusivity, proximity to 
Europe, and so on. So it is probably more important.
    Mr. Connolly. Mr. Mastic?
    Mr. Mastic. Yes, I would concur with that for the reasons 
Les points out with respect to Tunisia, Tunisia's institutions 
and the proximity and the sort of cultural affinity that it 
would have with the West, more so than you would find in Yemen.
    At this point, I hesitate or I would caution against the 
positive effects or spillover effects of a successful 
transition in Tunisia and other transition countries. 
Definitely, Tunisia was the critical country to start the Arab 
Spring. However, we are not where we were in 2011 anymore and 
unfortunately, very different processes have played out in 
Egypt and Libya.
    Having said that and as I said in my statement, Tunisia is 
important because the region, the Arab world lacks a successful 
working model of democracy. And so for that reason I think it 
is incredibly important that there be strong engagement, 
continued engagement in Tunisia.
    Mr. Connolly. Thank you both and I do think this can work 
in Tunisia. It at least creates another model, especially for 
places like Egypt.
    Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly. And thank you to 
our panelists, to our members, to the audience. I feel greatly 
encouraged after hearing from our three specialists. And with 
that, the subcommittee is adjourned. Thank you very much.
    [Whereupon, at 3:39 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
